No. 20-1570

 

 

In THE
Supreme Court of the United States

HRB Tax Grovp, INc.; HRB Dierrat LLC,

Petitioner,
v.

DEREK SNARR,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

BRIEF OF AMICI CURIAE
AMERICAN BANKERS ASSOCIATION AND
CONSUMER BANKERS ASSOCIATION
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

5,922 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 11, 2021.

 

Colin Casey Mogan
Wilson-Epes Printing Co., Inc.
